Assessment of the SEC’s Bounty
Program




                          March 29, 2010
                          Report No. 474
                                                  UNITED STATES
                                 SECURITIES AND EXCHANGE COMMISSION
                                            WASHINGTON. D.C.      20154~



     OI"I"'CE 0 ..
I~. ~ECTOR GI[~ln'AL


                                           MEMORANDUM

                                                   March 29, 2010

                To:            Robert Khuzami, Director, Division of Enforcement

                From:          H. David Katz, Inspector General, Office of Inspector General (OI G».t'~

               Subject:        Assessment of the SEC's Bounty Program, Report No. 474

               This memorandum transmits the U.S. Securities and Exchange Commission
               OIG's final report detailing the results of our assessment of the Commission's
               bounty program. This review was conducted in accordance with our annual audit
               plan.

               Based on the written comments received to the draft report and our assessment
               of the comments, we revised the r~port accordingly. This report contains nine
               recommendations. Your office concurred with all the. recommendations.
               Management's full comments to this report are included in the appendices.

               Within the next 45 days, please provide OIG with a written corrective actiQn plan
               that is designed to address the recommendations. The corrective action plan
               should include information such as the responsible official/point of contact, time
               frames for completing the required actions, milestone dates identifying how you
               will address the recommendations cited in this report, etc.

               Should you have any questions regarding this report, please do not hesitate to
               contact me. We appreciate the courtesy and cooperation that you and your staff
               extended to our auditor.

               Attachment



               cc:      Kayla J. Gillan, Deputy Chief of Staff, Office of the Chairman
                        Diego Ruiz, Executive Director, Office of the Executive Director
                        Joan McKown, Chief Counsel, Division of Enforcement




                Assessment of the SEC’s Bounty Program                                March 29, 2010
                Report No. 474
                                                         Page i
Assessment of SEC Bounty Program
                          Executive Summary

Background. There is evidence that bounty programs are an effective tool to
encourage whistleblowers to come forward and provide necessary incentives for
outside entities to bring complaints about possible illegal activity.

Section 21A(e) of the Securities Exchange Act of 1934 (Exchange Act), 15
U.S.C. § 78u-1(e), authorizes the Securities and Exchange Commission (SEC or
Commission) to award a bounty to a person who provides information leading to
the recovery of a civil penalty from an insider trader, from a person who tipped
information to an insider trader, or from a person who directly or indirectly
controlled an insider trader. All bounty determinations, including whether, to
whom, or in what amount to make payments, are within the sole discretion of the
SEC. However, the total bounty may not currently exceed 10 percent of the
amount recovered from a civil penalty pursuant to a court order.

The SEC recently sent to Congress proposed legislation to expand its authority
to permit bounties for any judicial or administrative action brought by the
Commission under the securities laws that results in monetary sanctions
exceeding $1,000,000. The proposed legislation was included in the Investor
Protection Act of 2009 (H.R. 3817), which was introduced in the U.S. House of
Representatives on October 15, 2009 by Representative Paul Kanjorski (D-Pa.)
and referred to the House Committee on Financial Services. Variations of this
legislation are being considered by both the U.S. House of Representatives and
U.S. Senate.

Objectives. This review was conducted as a result of an issue that we identified
during the OIG’s investigation into the SEC examination and investigations of
Bernard L. Madoff and related entities, OIG’s Report of Investigation,
Investigation of Failure of the SEC to Uncover Bernard Madoff’s Ponzi Scheme,
Report No. 509, August 31, 2009.

The primary objectives of the review were to:

   •   Assess whether necessary management controls have been established
       and operate effectively to ensure bounty applications are routed to
       appropriate personnel and are properly processed and tracked; and

   •   Determine whether other government agencies with similar programs
       have best practices that could be incorporated into the SEC bounty
       program.
Assessment of the SEC’s Bounty Program                             March 29, 2010
Report No. 474
                                         Page ii
Results. Although the SEC has had a bounty program in-place for more than 20
years for rewarding whistleblowers for insider trading tips and complaints, our
review found that there have been very few payments made under this program.
Likewise, the Commission has not received a large number of applications from
individuals seeking a bounty over this 20-year period. We also found that the
program is not widely recognized inside or outside the Commission. Additionally,
while the Commission recently asked for expanded authority from Congress to
reward whistleblowers who bring forward substantial evidence about other
significant federal securities law violations, we found that the current SEC bounty
program is not fundamentally well-designed to be successful.

More specifically, we found that improvements are needed to the bounty
application process to make it more user-friendly and help ensure that bounty
applications provide detailed information regarding the alleged securities law
violations. We also found that the criteria for judging bounty applications are
broad and the SEC has not put in place internal policies and procedures to assist
staff in assessing contributions made by whistleblowers and making bounty
award determinations. Additionally, we found that the Commission does not
routinely provide status reports to whistleblowers regarding their bounty
applications, even if a whistleblower’s information led to an investigation.
Moreover, we found that once bounty applications are received by the SEC and
forwarded to appropriate staff for review and further consideration, they are not
tracked to ensure they are timely and adequately reviewed. Lastly, we found that
files regarding bounty referrals did not always contain complete documentation,
such as a copy of the bounty application, a memorandum sent to the
whistleblower to acknowledge receipt of the application, and a referral
memorandum showing the office or division and official to whom the bounty
application was referred for further consideration.

We wish to note that the SEC has begun to take steps to correct the deficiencies
identified in its whistleblower/bounty program. The SEC has had consultations
with the Department of Justice (DOJ), Internal Revenue Service (IRS), and other
agencies, as well as the Financial Industry Regulatory Authority, to identify best
practices from existing well-defined whistleblower programs. The SEC has also
attempted to incorporate some of these best practices into legislation which it is
seeking from Congress to include expanded authority to reward whistleblowers
for securities law violations. The proposed legislation also takes into account
some issues identified in this report in connection with the existing insider trading
bounty program.

We believe that it is critical for the SEC to implement the following
recommendations to ensure that it has a fully-functioning and successful
whistleblower program in place as its authority is potentially expanded.



Assessment of the SEC’s Bounty Program                                 March 29, 2010
Report No. 474
                                         Page iii
Summary of Recommendations. Specifically, the review recommends that the
Division of Enforcement:

   (1) Develop a communication plan to address outreach to both the public and
       SEC personnel regarding the SEC bounty program. The plan should
       include efforts to make information available on the SEC’s intranet,
       enhance information available on the SEC’s public website, and provide
       training to employees who are most likely to deal with whistleblower
       complaints.

   (2) Develop and post to its public website an application form that asks the
       whistleblower to provide information, including, for example:

          a) The facts pertinent to the alleged securities law violation and
             explanation as to why the whistleblower believes the subject(s)
             violated the securities laws;
          b) A list of related supporting documentation in the whistleblower’s
             possession and available from other sources;
          c) A description of how the whistleblower learned about or obtained
             the information that supports the claim, including the
             whistleblower’s relationship to the subject(s);
          d) The amount of any monetary rewards obtained by the subject
             violator(s) (if known) as a result of the securities law violation, and
             how the amount was calculated; and
          e) A certification that the application is true, correct, and complete to
             the best of the whistleblower’s knowledge.

   (3) Establish policies on when to follow-up with whistleblowers who submit
       applications to clarify information in the bounty applications and obtain
       readily available supporting documentation prior to making a decision as
       to whether a whistleblower’s complaint should be further investigated.

   (4) Develop specific criteria for recommending the award of bounties,
       including a provision that where a whistleblower relies partially upon public
       information, such reliance will not preclude the individual from receiving a
       bounty.

   (5) Examine ways in which the Commission can increase communications
       with whistleblowers by notifying them of the status of their bounty requests
       without releasing non-public or confidential information during the course
       of an investigation or examination.

   (6) Develop a plan to incorporate controls for tracking tips and complaints
       from whistleblowers seeking bounties into the development of
       Enforcement’s tips, complaints, and referrals processes and systems for

Assessment of the SEC’s Bounty Program                                  March 29, 2010
Report No. 474
                                         Page iv
       other tips and complaints. These controls should provide for the collection
       of necessary information and require processes that will help ensure that
       bounty applications are reviewed by experienced Commission staff,
       decisions whether to pursue whistleblower information are timely made,
       and whistleblowers who provide significant information leading to a
       successful action for violation of the securities laws are appropriately
       rewarded.

   (7) Require that a bounty file (hard copy or electronic) be created for each
       bounty application. The file should contain at a minimum the bounty
       application, any correspondence with the whistleblower, documentation of
       how the whistleblower’s information was utilized, and documentation
       regarding significant decisions made with regard to the whistleblower’s
       complaint.

   (8) Incorporate best practices obtained from DOJ and the IRS into the SEC
       bounty program with respect to bounty applications, analysis of
       whistleblower information, tracking of whistleblower complaints,
       recordkeeping practices, and continual assessment of the whistleblower
       program.

   (9) Establish a timeframe to finalize new policies and procedures for the SEC
       bounty program that incorporates the best practices from DOJ and IRS as
       well as any legislative changes to the program.




Assessment of the SEC’s Bounty Program                               March 29, 2010
Report No. 474
                                         Page v
Table of Contents
Executive Summary ................................................................................................ ii

Table of Contents ................................................................................................... vi

Background and Objectives
     Background ........................................................................................................ 1
     Objectives .......................................................................................................... 3

Findings and Recommendations
     Finding 1: SEC Bounty Program Has Made Very Few Payments and
               Received a Relatively Small Number of Bounty Applications ............ 4
                  Recommendation 1....................................................................... 8

         Finding 2: Standardized Bounty Application Forms Would Help Make the
                   Bounty Application Process More User Friendly for
                   Whistleblowers ................................................................................... 8
                       Recommendation 2..................................................................... 11
                       Recommendation 3..................................................................... 11

         Finding 3: Criteria for Judging Bounty Applications are Broad and
                   Somewhat Vague............................................................................. 12
                       Recommendation 4..................................................................... 13

         Finding 4: More Frequent Communication with Whistleblowers is Needed ...... 13
                      Recommendation 5..................................................................... 15

         Finding 5: Better Tracking of the Use of Whistleblower Information is
                   Needed ............................................................................................ 15
                      Recommendation 6..................................................................... 19

         Finding 6: Bounty Files Did Not Always Contain Complete Information ........... 19
                      Recommendation 7..................................................................... 20

         Finding 7: SEC Bounty Program Should Incorporate Best Practices from
                   other Agencies with Whistleblower Programs .................................. 20
                      Recommendation 8..................................................................... 22
                      Recommendation 9..................................................................... 22

Appendices
    Appendix I: Acronyms. ..................................................................................... 23
    Appendix II: Scope and Methodology............................................................... 24
    Appendix III: Criteria......................................................................................... 25

Assessment of the SEC’s Bounty Program                                                           March 29, 2010
Report No. 474
                                                    Page vi
        Appendix IV: List of Recommendations ........................................................... 26
        Appendix V: Management Comments.............................................................. 28
        Appendix VI: OIG Response to Management’s Comments ............................. 31

Table
        Table 1: Payments to Whistleblowers. ............................................................... 5




Assessment of the SEC’s Bounty Program                                                March 29, 2010
Report No. 474
                                              Page vii
                     Background and Objectives

Background
There is evidence that bounty programs are an effective tool to encourage
whistleblowers to come forward and provide incentives for outside entities to
bring complaints about possible illegal activity. We identified two government
agencies, the Internal Revenue Service (IRS) and Department of Justice (DOJ),
that have well-defined whistleblower functions.

Section 21A(e) of the Securities Exchange Act of 1934 (Exchange Act), 15
U.S.C. § 78u-1(e), authorizes the Securities and Exchange Commission (SEC or
Commission) to award a bounty to a person who provides information leading to
the recovery of a civil penalty from an insider trader, 1 from a person who tipped
information to an insider trader, or from a person who directly or indirectly
controlled an insider trader. All bounty determinations, including whether, to
whom, and in what amount to make payments, are within the sole discretion of
the SEC. However, the total bounty may not currently exceed 10 percent of the
amount recovered from a civil penalty pursuant to a court order.

Section 21A(e) of the Exchange Act was added by the Insider Trading and
Securities Fraud Enforcement Act of 1988 (ITSEA), Pub L. No. 100-704. ITSEA
embodied a series of statutory changes that Congress viewed as necessary at
that time to augment existing methods of detection and punishment of insider
trading behavior. Particularly in light of the stock market crash in October 1987,
Congress viewed the changes as an essential ingredient to restore the
confidence of the public in the fairness and integrity of the securities markets.

The Commission has adopted regulations to provide for administration of the
process for making bounty requests. These regulations are included in the Code
of Federal Regulations, Title 17: Commodity and Securities Exchanges, Part
201- Rules of Practice, Subpart C-Procedures Pertaining to the Payment of
Bounties Pursuant to Subsection 21A(e) of the Securities Exchange Act of 1934,
Sections 201.61-201.68. The SEC bounty program regulations require that
applications be in writing, and that applications be filed within 180 days after the
entry of the court order requiring payment of the insider trading penalty from
which the bounty is to be paid. 2 An application for a bounty must contain, among

1
  The term “insider trading” refers generally to buying or selling a security, in breach of a fiduciary duty or
other relationship of trust or confidence, while in possession of material, nonpublic information about the
security. Insider trading violations may also include tipping such information, securities trading by the
person tipped and security trading by those who misappropriate such information.
(http://www.sec.gov/answers/bounty.htm.)
2
  17 C.F.R. §§ 201.62 and 201.63.
Assessment of the SEC Bounty Program                                                               March 29, 2010
Report No. 474
                                                   Page 1
other things, information concerning the dates and times upon which, and the
means by which, information was provided, as well as the identity of the
Commission staff to whom the information was provided. 3

The SEC bounty program is administered by the Division of Enforcement
(Enforcement). While the program has been in place for more than 20 years,
there have been very few payments by the Commission under the program.
Likewise, the Commission has not received a large number of applications from
individuals seeking a bounty. The SEC bounty program is limited to insider
trading cases and the stated criteria for judging bounty applications are broad,
somewhat vague and not subject to judicial review. Moreover, there is no
entitlement to a reward even if the whistleblower’s information causes the
government to recover money from wrongdoers.

In testimony before the House Subcommittee on Financial Services and General
Government Appropriations of the House Committee on Appropriations in March
2009, SEC Chairman Mary Schapiro spoke about the possible expansion of the
SEC’s authority to award whistleblowers. 4 Chairman Schapiro stated that “right
now, the main reward for being a whistleblower is the good feeling you get of
having done something important, because [the SEC does not] have the
authority to pay except where the whistleblowing relates to insider trading.” 5
Chairman Schapiro added that “[w]histleblowers tend to do a lot of the work for
you, hand you something that is pretty fully baked.” 6 She further stated that
expanding authority would enable the SEC to “run with that kind of information
and to pursue cases in a much more aggressive way.” 7

The SEC recently sent to Congress proposed legislation to expand the authority
of the program, in addition to other reforms, to permit bounties for any judicial or
administrative action brought by the Commission under the securities laws that
result in monetary sanctions exceeding $1,000,000. The proposed legislation
was included in the Investor Protection Act of 2009 (H.R. 3817), which was
introduced in the U.S. House of Representatives on October 15, 2009 by
Representative Paul Kanjorski (D. PA) and referred to the House Committee on
Financial Services. Variations of this legislation are being considered by both the
U.S. House of Representatives and the U.S. Senate.




3
  17 C.F.R. § 201.64.
4
  Securities and Exchange Commission Actions Relating to the Financial Crisis: Hearing Before the
Subcommittee on Financial Services and General Government of the H. Comm. on Appropriations, 111
Cong. (2010) (testimony of Mary Schapiro, Chairman, Securities and Exchange Commission).
5
   Id.
6
   Id.
7
   Id.
Assessment of the SEC’s Bounty Program                                               March 29, 2010
Report No. 474
                                              Page 2
Objectives
This review was conducted in accordance with our annual audit plan, as a result
of an issue that we identified during the OIG’s investigation into the SEC
examination and investigations of Bernard L. Madoff and related entities, OIG
Report of Investigation, Investigation of Failure of the SEC to Uncover Bernard
Madoff’s Ponzi Scheme, Report No. 509. The primary objectives of the review
were to:

       •   Assess whether necessary management controls have been
           established and operate effectively to ensure bounty applications are
           routed to appropriate personnel and are properly processed and
           tracked; and

       •   Determine whether other government agencies with similar programs
           have best practices that could be incorporated into the SEC bounty
           program.




Assessment of the SEC’s Bounty Program                               March 29, 2010
Report No. 474
                                         Page 3
            Findings and Recommendations

We found that while a bounty program has been in place at the SEC for more
than 20 years, there have been very few payments made by the Commission
under the program. Likewise, the Commission has not received a large number
of applications from individuals seeking a bounty. The program is also not widely
recognized inside or outside the Commission. We also found that the SEC
bounty program is limited to insider trading cases and the stated criteria for
judging bounty applications are broad, somewhat vague and not subject to
judicial review.

In addition, we generally found that bounty applications the Commission received
were acknowledged in writing and were then forwarded to appropriate senior-
level staff in headquarters and the regional offices for further consideration.
However, bounty applications were not adequately tracked to ensure timely and
adequate handling of the information. We did find that the Commission made
formal determinations and notified bounty claimants, accordingly, with respect to
all persons the Commission deemed eligible for award in accordance with the
statute. We also found that on the few occasions when the Commission has
made an award, it has paid the maximum allowed by the statute.

We further identified areas that need increased management controls with regard
to the bounty application process, maintenance of files pertaining to bounty
applications, and correspondence with whistleblowers regarding the status of
their bounty applications.

Lastly, we identified several best practices utilized by agencies with similar
programs that should be adopted by the SEC in developing a successful bounty
program.


Finding 1: SEC Bounty Program Has Made Very
Few Payments and Received a Relatively Small
Number of Bounty Applications
       The SEC bounty program has made very few payments to
       whistleblowers since its inception and received a relatively
       small number of bounty applications. As a result, the
       program’s success has been minimal and its existence is
       practically unknown.

Assessment of the SEC’s Bounty Program                                March 29, 2010
Report No. 474
                                         Page 4
Since the inception of the SEC bounty program in 1989, the SEC has paid a total
of $159,537 to five claimants as detailed in Table 1 below.

                Table 1: Bounty Payments to Whistleblowers
                 Bounty          Year     Bounty Amount
                 Claimant
                 1) Claimant 1           1989          $3,500
                 2) Claimant 2           2001         $18,152
                 3) Claimant 3           2002         $29,079
                 4) Claimant 4           2005         $17,500
                 4) Claimant 4           2006         $29,920
                 4) Claimant 4           2009         $55,220
                 5) Claimant 5           2007         $6,166
                 Total                               $159,537
                Source: OIG Generated

As Table 1 illustrates, Claimant 4 received three payments because the
information provided by the claimant led to the filing of three separate insider
trading cases. All payments were for the 10 percent maximum amount permitted
by statute.

The Commission also formally denied five bounty applications since the inception
of the program as summarized below.

   •   In 1990, the Commission denied a bounty request to
       Claimant 6 on the grounds that the statute did not authorize
       payment for information provided prior to its effective date.

   •   In 1990, the Commission denied a bounty request to
       Claimant 7 on the same ground asserted in the
       aforementioned bounty request for Claimant 6.

   •   In 1996, the Commission denied a bounty request to
       Claimant 8 because, as with the aforementioned two bounty
       requests, Claimant 8 had provided information prior to the
       effective date of the statute. However, Claimant 8 also
       provided additional information after the effective date of the
       statute. SEC staff recommended denial of the bounty
       request on the grounds that the latter information did not
       result in the addition of any defendants, securities
       transactions or violations to the complaint.


Assessment of the SEC’s Bounty Program                                   March 29, 2010
Report No. 474
                                         Page 5
      •    In 2001, the Commission denied the bounty request of
           Claimant 9. The Commission asserted that Claimant 9 had
           provided fictitious information that resulted in the
           unnecessary use of staff resources, and falsely claimed to
           have provided information to the Chicago Board Options
           Exchange, which had earlier alerted the Commission to
           suspicious trading.

      •    In 2004, the Commission denied the joint bounty request of
           Claimant 10, Claimant 11, and Claimant 12, three brokerage
           employees. The Commission recommended denial on the
           grounds that the initial information about insider trading had
           been provided by the brokerage firm’s general counsel’s
           office. The SEC did not seek or obtain any information
           directly from Claimant 11 or Claimant 12.

In addition to the aforementioned bounty applications that were formally
approved or denied by the Commission, we determined that from January 1,
2005 to January 1, 2010, the SEC received approximately 30 other bounty
applications, but did not formally take action to approve or deny any of them and
did not notify the bounty applicant accordingly. The person responsible for
overseeing the SEC bounty program stated that this occurred because the
Commission only makes a formal bounty determination and provides notice to an
applicant when the bounty information results in the recovery of an insider trading
civil penalty in accordance with the Exchange Act. Thus, while the Commission
has made formal determinations with respect to all persons that it deemed
eligible for award in accordance with the statute, the 30 bounty applicants were
never notified of the results of the SEC’s review.

Further, we found that while the Commission reported in its 2009 Performance
and Accountability Report that only 6 percent of the Commission’s Enforcement
cases in Fiscal Year 2009 related to insider trading, 8 the SEC filed or initiated 37
insider trading cases in 2009. However, only one payment was approved under
the SEC bounty program during Fiscal Year 2009. Additionally, the SEC filed or
initiated a total of 204 insider trading cases between Fiscal Years 2005 - 2008,
but only approved three payments under the SEC bounty program. Based on the
number of insider trading cases initiated by the Commission during the past five
years, it would appear that there could have been more utilization of the SEC
bounty program.

We believe that the minimal use of the SEC bounty program can be attributed
primarily to the fact that the program has not been widely publicized, internally
within the agency or externally to the public. We found that general information
8
    http://www.sec.gov/about/secpar2009.shtml, Chart 2.10, at page 34.
Assessment of the SEC’s Bounty Program                                      March 29, 2010
Report No. 474
                                                  Page 6
on how to apply for a bounty can be found on the SEC’s public website, but there
is no contact information or e-mail address to which potential bounty claimants
can send questions. Also, there is no application form, only instructions on what
type of information should be included in a narrative format. 9 The SEC also
developed an informational pamphlet for the bounty program that was intended
to be used as an educational device to be routinely sent by staff to individuals
who provide information that might lead to award of a bounty. While the
pamphlet is a good tool for marketing the program, we found no evidence that
staff members are generally aware of the pamphlet and provide it routinely to
potential bounty applicants. In addition, the SEC has publicly released only
limited information on Commission decisions regarding bounty awards and
denials. Commission officials provided information showing that with the
exception of one payment and one denial, the identity of bounty applicants has
not been disclosed publicly, nor has the SEC disclosed that all bounty payments
have been for the maximum 10 percent permitted by the statute. The years in
which bounties have been awarded and the total amount of the payments,
however, have been disclosed.

In addition, based on discussions with various senior Enforcement staff in
headquarters as well as the regional offices, we found varying degrees of
knowledge regarding the SEC bounty program among Commission staff. Some
staff who had received bounty applications for further consideration remarked
that they knew nothing about the bounty program, while others had some
knowledge of the workings of the program and associated laws and regulations.
Therefore, more extensive marketing of the program both internally and
externally is necessary to ensure Commission staff, as well as potential
whistleblowers, are aware of the program. This holds especially true for staff
who are in positions where they evaluate whistleblower information.

We learned through discussions with responsible Commission officials that there
has been extensive work performed by the Office of the Chairman, Enforcement,
and the Office of General Counsel (OGC) on drafting proposed legislation to
revamp the current bounty program in the wake of the Bernard Madoff scandal.
The proposed legislation, among other things, would provide expanded authority
for the program to permit bounties in connection with any judicial or
administrative action brought by the Commission under the securities laws that
result in monetary sanctions exceeding $1,000,000. The proposed legislation
was included in the Investor Protection Act of 2009 (H.R. 3817), which was
introduced in the U.S. House of Representatives on October 15, 2009 by
Representative Paul Kanjorski and referred to the House Committee on Financial
Services. We are encouraged by the actions the Commission has taken and
support the timely passage of the proposed legislation as a necessary step to
develop a successful SEC whistleblower/bounty program. Additionally, the SEC
9
    http://www.sec.gov/divisions /enforce/insider.htm.
Assessment of the SEC’s Bounty Program                              March 29, 2010
Report No. 474
                                                    Page 7
has begun to explore ways to more extensively market the bounty program in an
effort to increase awareness both inside and outside the Commission.

       Recommendation 1:

       The Division of Enforcement should develop a communication plan to
       address outreach to both the public and Securities and Exchange
       Commission (SEC) personnel regarding the SEC bounty program. The
       plan should include efforts to make information available on the SEC’s
       intranet, enhance information available on the SEC’s public website, and
       provide training to employees who are most likely to deal with
       whistleblower cases.

       Management Comments. Concur. See Appendix V for management’s
       full comments.

       OIG Analysis. We are pleased that Enforcement concurred with this
       recommendation.


Finding 2: Standardized Bounty Application
Forms Would Help Make the Bounty
Application Process More User Friendly
for Whistleblowers
       Information on the SEC’s public website regarding how an
       individual may apply for a bounty can be misleading and
       potentially a deterrent to prospective whistleblowers.

With regard to how and when a prospective whistleblower may apply for a
bounty, the SEC’s public website currently states in a section entitled, “How and
When Do You Apply for a Bounty?” as follows:

       An application must be clearly marked as an “Application for
       Award of a Bounty,” and must contain the information
       required by the Commission’s rules. The application must
       give a detailed statement of the information that the
       applicant has about the suspected insider trading.

       Any person who desires to provide information to the
       Commission that may result in the payment of a bounty may
       do so by any means desired. The Commission encourages

Assessment of the SEC’s Bounty Program                                March 29, 2010
Report No. 474
                                         Page 8
         persons having information regarding insider trading to
         provide that information in writing, either at the time they
         initially provide the information to the Commission or as soon
         as possible afterwards. Providing information in writing
         reduces the possibility of error, helps assure that appropriate
         action will be taken, and minimizes subsequent burdens and
         the possibility of factual disputes. In any event a written
         application for a bounty must be filed with 180 days after the
         day on which the court orders payment of the civil penalty. 10

The SEC’s website also includes in a subsequent section entitled, “Statutory and
Regulatory Provisions,” the Commission rules for bounty applications. Rule 64
Form of application and information required, states that “[e]ach application
pursuant to this subpart shall be identified as an Application for Award of a
Bounty and shall contain a detailed statement of the information provided by the
applicant that the applicant believes led or may lead to the imposition of a
penalty.” 11 The rule also states that “[w]hen the application is not the means by
which the applicant initially provides such information, each application shall
contain: the dates and times upon which, and the means by which, the
information was provided; the identity of the Commission staff members to whom
the information was provided; and if the information was provided anonymously,
sufficient further information to confirm that the person filing the application is the
same person who provided the information to the Commission.” 12

Based on this language, a bounty applicant may be unclear as to what
constitutes an acceptable application, i.e., what level of detail should be
provided, if supporting documents should be included or referenced, etc. During
our review we found that many bounty applications were essentially generalized
tips and complaints about potential insider trading based on public information
without any real evidence or actual knowledge that an individual or individuals
used material non-public information when purchasing or selling securities.

To illustrate, one bounty application included in our sample that was referred to a
senior official in headquarters by the bounty program for further consideration
stated:

         Company A doubled in price with extremely high volume
         prior to the announcement that Company B had loaned them
         (Company A) millions of $ to help in preventing bankruptcy.
         This possible insider trading occurred on Tuesday Aug 18. 13
10
   http://www.sec.gov/divisions/enforce/insider.htm, at p. 2.
11
   Id. at 4.
12
   Id.
13
   Information obtained from SEC bounty file maintained by the Office of Chief Counsel within the Division of
Enforcement.
Assessment of the SEC’s Bounty Program                                                     March 29, 2010
Report No. 474
                                                 Page 9
Because the bounty application was vague, the senior official that received it
stated that it was not useful or relevant to his ongoing investigation into the
subject. Additionally, the senior official dismissed the tip without contacting the
bounty applicant to determine if he had further information.

For another bounty application, the bounty applicant alleged the existence of a
“wide ranging community of individual investors and investing business entities
who willingly participate in, for lack of a better term, a group that trades on
selected equities in various ways for the purpose of can’t lose investment
transactions.” 14 The senior-level official who received the bounty application for
further consideration stated that the complaint was not specific as to the
securities (or even category of securities) in which the alleged insider trading
occurred and contained no information on how insider trading information was
allegedly shared. Further, the bounty applicant had submitted previous
complaints of wide-ranging conspiracies that the official deemed to lack credible
support upon which to base an investigation. Therefore, the bounty application
was dismissed without further action.

As part of our review, we contacted some bounty applicants to obtain feedback
regarding the bounty application process. One individual stated that it would be
useful if the SEC had a link on its website to an application form that can be
downloaded. Another individual stated that he had additional information to
support his bounty application, but that no one from the SEC had contacted him
to follow up and ask for supporting information.

To help ensure that bounty applications are complete and the information
provided is useful, we believe the Commission should develop a standardized
electronic form that can be downloaded. Also, at a minimum, whistleblowers
should be asked to provide the following information, in addition to relevant
contact information:

       •   The facts pertinent to the alleged securities law violation and
           explanation as to why the subject(s) violated the securities
           laws.

       •   A list of related supporting documentation in the
           whistleblower’s possession and/or available from other
           sources.

       •   A description of how the whistleblower learned about/and or
           obtained the information that supports the claim, including
           the whistleblower’s relationship to the subject(s).

14
     Id.
Assessment of the SEC’s Bounty Program                                       March 29, 2010
Report No. 474
                                         Page 10
   •   The amount of any monetary rewards reaped by the subject
       violator (if known) as a result of the securities violation and
       how the amount was calculated.

   •   A certification that the application is true, correct, and
       complete to the best of the whistleblower’s knowledge.

Additionally, the Commission should follow up with whistleblowers, where
appropriate, regarding their applications to ensure all available information has
been obtained in order to effectively evaluate whether the information should
result in further investigation.

       Recommendation 2:

       The Division of Enforcement should develop and post to its public website
       an application form that asks the whistleblower to provide information,
       including:

          (1) The facts pertinent to the alleged securities law violation and an
              explanation as to why the subject(s) violated the securities laws;
          (2) A list of related supporting documentation in the whistleblower’s
              possession and available from other sources;
          (3) A description of how the whistleblower learned about or obtained
              the information that supports the claim including the whistleblower’s
              relationship to the subject(s);
          (4) The amount of any monetary rewards obtained by the subject
              violator(s) (if known) as a result of the securities law violation and
              how the amount was calculated; and
          (5) A certification that the application is true, correct, and complete to
              the best of the whistleblower’s knowledge.

       Management Comments. Concur. See Appendix V for management’s
       full comments.

       OIG Analysis. We are pleased that Enforcement concurred with this
       recommendation.

       Recommendation 3:

       The Division of Enforcement should establish policies on when to follow
       up with whistleblowers who submit applications to clarify information in the
       bounty applications and obtain readily available supporting documentation
       prior to making a decision as to whether a whistleblower’s complaint
       should be further investigated.

Assessment of the SEC’s Bounty Program                                   March 29, 2010
Report No. 474
                                         Page 11
       Management Comments. Concur. See Appendix V for management’s
       full comments.

       OIG Analysis. We are pleased that Enforcement concurred with this
       recommendation.


Finding 3: Criteria for Judging Bounty
Applications Are Broad and Somewhat
Vague
       The criteria for judging bounty applications are broad,
       somewhat vague and not subject to judicial review. As a
       result, the criteria may not be consistently applied by
       Enforcement staff.

Although the Commission adopted bounty program regulations to provide a
structure for the orderly administration of the process for making bounty
payments, the regulations essentially repeat, instead of clarifying or
supplementing, much of the language found in the statute regarding bounty
determinations.

The Code of Federal Regulations (CFR), Title 17: Commodity and Securities
Exchanges, Part 201- Rules of Practice, Subpart C - Procedures Pertaining to
the Payment of Bounties Pursuant to Subsection 21A(e) of the Securities
Exchange Act of 1934, Section 201.61, Scope of Subpart, states as follows:

       Section 21A of the Securities and Exchange Act of 1934
       authorizes the courts to impose civil penalties for certain
       violations of that Act. Subsection 21A(e) permits the
       Commission to award bounties to persons who provide
       information that leads to the imposition of such penalties.
       Any such determination, including whether, to whom, or in
       what amount to make payments, is in the sole discretion of
       the Commission. This subpart sets forth procedures
       regarding applications for the award of bounties pursuant to
       Subsection 21A(e). Nothing in this subpart shall be deemed
       to limit the discretion of the Commission with respect to
       determinations under subsection 21A(e) or to subject any
       such determination to judicial review.

Additionally, Section 201.68, No promises of payment, states as
follows:
Assessment of the SEC’s Bounty Program                                March 29, 2010
Report No. 474
                                         Page 12
       No person is authorized under this subpart to make any offer
       or promise, or otherwise to bind the Commission with
       respect to the payment of any bounty or the amount thereof.

Because of the use of language such as “information that leads to the imposition
of such penalties” and “in the sole discretion of the Commission,” the criteria for a
bounty award are broad and subject to interpretation. In addition, Enforcement
does not have internal policies and procedures to assist Commission staff in
assessing contributions that are made by whistleblowers and recommending
bounty award determinations. The Commission should establish internal policies
and procedures to provide more specific guidelines for awarding bounties.

       Recommendation 4:

       The Division of Enforcement should develop specific criteria for
       recommending the award of bounties, including a provision that where a
       whistleblower relies partially upon public information, such reliance will not
       preclude the individual from receiving a bounty.

       Management Comments. Concur. See Appendix V for management’s
       full comments.

       OIG Analysis. We are pleased that Enforcement concurred with this
       recommendation.

Finding 4: More Frequent
Communication with Whistleblowers is
Needed
       The Commission does not routinely provide status reports to
       whistleblowers regarding their bounty applications, even if
       there is an ongoing investigation or examination. This
       practice could discourage individuals from continuing to
       utilize the program and from providing useful follow-up
       information to their bounty applications.

We found that the SEC bounty program only provides written notification to
whistleblowers regarding the status of their bounty applications to:

   (1) Acknowledge receipt of the applications; and
   (2) Notify them if formal determinations are made by the SEC with respect to
       their bounty applications.

Assessment of the SEC’s Bounty Program                                 March 29, 2010
Report No. 474
                                         Page 13
According to Commission officials, a formal determination is made only if the
information provided by the whistleblower leads to an insider trading civil penalty
being imposed by the court in a Commission civil action, and the penalty has
actually been paid by the defendant. Consequently, if a whistleblower’s
information was never pursued for one reason or another, or was pursued but did
not lead to an insider trading penalty being recovered, the whistleblower would
typically not receive any correspondence from the SEC regarding the status of
his or her bounty request, other than the initial acknowledgement letter. This
may result in a whistleblower wondering if the information provided even made it
into the right hands. The initial acknowledgement letter sent to whistleblowers
includes the following language:

        This is to acknowledge receipt of your Application for Award
        of a Bounty, dated XX.

        You may be assured that the information you have provided
        will receive full consideration by the Commission’s staff.
        Information from members of the public is an important
        source of information to the Commission in the conduct of its
        law enforcement functions.

        As a matter of policy, the Commission staff can neither affirm
        nor deny the existence of any investigation arising from the
        information you have provided until it files a public
        enforcement action. This policy is intended to prevent
        premature disclosure of information that may interfere with
        the successful completion of an investigation, and to protect
        the privacy of persons who have not been formally charged
        with violations of laws.

        All determinations with respect to bounties are made at the
        Commission’s discretion and no determinations are made
        until a civil penalty has been imposed and actually recovered
        in a Commission enforcement action. Section 21A(e) of the
        Securities Exchange Act of 1934 [15 U.S.C. 78u-1(e)]. You
        will be informed of any determination in accordance with our
        bounty regulations. See 17 C.F.R. 201.61-68. 15

While we acknowledge that Commission staff cannot release non-public or
sensitive information during the course of an investigation, the Commission
should examine ways to notify whistleblowers of the status of their bounty

15
  Code of Federal Regulations, Title 17: Commodity and Securities Exchanges, Part 201-Rules of Practice,
Subpart C-Procedures Pertaining to the Payment of Bounties Pursuant to Subsection 21A(e) of the
Securities Exchange Act of 1934, Sections 201.61-201.68.
Assessment of the SEC’s Bounty Program                                                  March 29, 2010
Report No. 474
                                               Page 14
requests beyond simply acknowledging receipt of the applications. This is
especially needed when a whistleblower’s information results in an investigation
that may take years to close.

       Recommendation 5:

       The Division of Enforcement, in consultation with the Office of General
       Counsel, should examine ways in which the Commission can increase
       communications with whistleblowers by notifying them of the status of their
       bounty requests, without releasing non-public or confidential information
       during the course of an investigation or examination.

       Management Comments. Concur. See Appendix V for management’s
       full comments.

       OIG Analysis. We are pleased that Enforcement concurred with this
       recommendation.


Finding 5: Better Tracking of the Use of
Whistleblower Information is Needed
       While we generally found that the SEC conducted an initial
       cursory review of bounty applications and forwarded them to
       appropriate senior-level program staff in the headquarters
       and regional offices for further consideration, we found that
       the recipient offices handled the applications on an
       individualized, ad hoc basis. Consequently, better tracking
       of bounty applications and related information is needed to
       ensure that bounty information is timely reviewed by
       experienced Commission staff and significant decisions are
       documented.

Bounty applications received by the Commission are either filed after recovery of
an insider trading civil penalty or prior to payment of an insider trading civil
penalty, in connection with a tip or complaint about alleged insider trading.

When an insider trading civil penalty has already been recovered and a related
bounty application is received by the Office of the Secretary, the application is
forwarded to the Office of the Chief Counsel (OCC) in Enforcement. OCC then
contacts the appropriate staff in the headquarters or regional office responsible
for the case in which the insider trading civil penalty was recovered and forwards
them a copy of the bounty application. If the applicant’s information pertains to a

Assessment of the SEC’s Bounty Program                                 March 29, 2010
Report No. 474
                                         Page 15
case in which there was recovery of an insider trading civil penalty, the office to
whom the bounty application was referred may recommend that the Commission
grant a bounty up to 10 percent of the amount recovered as an insider trading
penalty. In those cases, the responsible headquarters or regional office, in
consultation with OCC and OGC, prepares an action memorandum, which is
then provided to the Chairman and Commissioners for final approval. Since
inception of the bounty program, formal recommendations have only been
prepared in response to 10 bounty applications, where there was recovery of an
insider trading civil penalty.

When applications are filed prior to the assessment of an insider trading civil
penalty, the Office of the Secretary forwards the application to OCC. OCC then
performs a search of the Commission’s electronic databases (NRSI, 16 CATS
2000, 17 and the HUB 18 ) to determine whether the application relates to conduct
that is already the subject of an Enforcement investigation or action. If there is
an investigation or action related to the conduct described in the application, the
application is referred to the staff responsible for the investigation or action. If
the database search does not result in the identification of an ongoing
investigation or action, OCC staff determines the appropriate staff to whom the
application should be directed. If the application alleges misconduct by officers,
directors, or employees of a public company, OCC staff will determine the
headquarters location of the issuer. The application will be referred to staff in the
Commission office with responsibility for that geographic location. If the
application alleges misconduct by individuals who are in a location other than the
SEC region in which the issuer is headquartered, the application is referred to
staff in the Commission office with responsibility for that geographic location. If
the application does not contain information sufficient to identify the location of
the alleged insider traders, the application is referred to staff in the Commission
office with responsibility for the geographical location in which the whistleblower
resides.

Referrals of bounty applications to Commission staff are generally accompanied
by a memorandum that states as follows:

        Attached is a copy of a bounty application submitted by X.
        The claim involves alleged insider trading violation by X
        company through its X office. The application seeks an
        insider trading bounty under Section 21A(e) of the Exchange

16
   Name Relationship Search Index (NRSI) provides an index to names contained in various internal and
external automated SEC information systems, including filings with the Division of Corporation Finance, and
Division of Enforcement inquiries and investigations.
17
   Case Activity Tracking System (CATS 2000) provides case tracking and workflow management for
Division of Enforcement offices nationwide.
18
   HUB interfaces with CATS 2000 and provides case management and tracking for Division of Enforcement
offices nationwide including the ability to produce various reports.
Assessment of the SEC’s Bounty Program                                                    March 29, 2010
Report No. 474
                                                Page 16
       Act. I have sent a letter acknowledging receipt of the
       application. A copy of my letter is attached.

       I am referring this matter to your office for such further action
       as you may consider appropriate.

The whistleblower is also sent an acknowledgement letter, as discussed
previously.

During our review, we interviewed responsible Commission staff in Enforcement
at headquarters, as well as Enforcement staff from three regional offices to gain
an understanding of how offices tracked and utilized bounty application
information. We also examined nine out of approximately 30 bounty applications
(30 percent) submitted to the Commission between January 1, 2005 and January
1, 2010 (that were neither formally approved or denied by the Commission), to
determine if sufficient documentation existed to support timely and appropriate
handling of the bounty applications. Further, we reviewed supporting
documentation pertaining to five bounty applications that were formally denied by
the Commission to determine if adequate documentation was maintained by the
Commission to support the denial of the applications.

We found that adequate documentation existed to support the disposition of the
five bounty applications that were formally denied by the Commission. However,
documentation was not readily available from OCC to show the disposition for
the nine bounty applications that were forwarded to Enforcement staff in
headquarters and the regional offices for further consideration, but were not
formally approved or denied.

We found that once a bounty application is referred by OCC to the appropriate
senior-level official in headquarters or a regional office, it is up to that official to
take whatever action he or she deems necessary and to document the results of
any decisions that are made, according to that office’s procedures. Based on our
review of available documentation from Enforcement staff in headquarters and
three regional offices pertaining to the nine sampled bounty applications, it
appears that the bounty applications were generally reviewed timely. However,
we found that one application had been referred to a regional office on November
18, 2009, by OCC and was still awaiting review as of January 6, 2009. We also
found that Enforcement staff conducted preliminary reviews of the information
contained in the bounty applications they received, but did not routinely go back
to bounty applicants to clarify information or ask for additional supporting
documentation. Rather, general or vague bounty applications were typically
dismissed. In addition, for two of the nine bounty applications, we were unable to
obtain specific information pertaining to the handling of the applications. We did
find that based on information provided by one whistleblower, the responsible

Assessment of the SEC’s Bounty Program                                     March 29, 2010
Report No. 474
                                         Page 17
regional office filed both criminal and civil actions and also provided assistance to
the whistleblower in the preparation of his bounty application. The whistleblower,
however, was not awarded a bounty because no insider trading penalty was
recovered. Lastly, we found that Enforcement staff documented the results of
their reviews of bounty applications and decisions made using different methods,
including personal notes and files and/or use of the Commission’s electronic
complaint handling system (CTR 2009), as well as the HUB case tracking
system.

The SEC has recently taken steps to improve its ability to handle and track all
tips and complaints. In February 2009, the SEC retained The MITRE
Corporation: Center for Enterprise Modernization 19 to complete a comprehensive
review of internal procedures for evaluating tips, complaints, and referrals. The
OIG has learned that the project is intended to be significant in scope. On
August 5, 2009, Enforcement announced the creation of the Office of Market
Intelligence (OMI). OMI is Enforcement’s liaison to the Agency’s Tip, Complaint,
and Referral (TCR) process and system, which is responsible for the collection,
analysis, risk-weighing, triage, referral and monitoring of the hundreds of
thousands of tips, complaints and referrals that the Commission receives each
year. By analyzing each tip according to internally-developed risk criteria and
making connections between and among tips from different sources,
Enforcement hopes to be able to better focus its resources on the tips that have
the greatest potential for uncovering wrongdoing. OMI will also utilize the
expertise of the SEC’s other divisions and offices as well as the newly-created
specialized units within Enforcement, to help analyze tips and identify securities
law violations.

We believe that the Commission should incorporate necessary management
controls in its new TCR process and information technology system to include
complaints and tips from whistleblower’s who seek a bounty, in addition to other
types of tips and complaints. This will help ensure that bounty applications are
appropriately and timely evaluated by experienced Commission staff and bounty
application information can be linked with other related complaints and tips.

        Recommendation 6:

        The Division of Enforcement should develop a plan to incorporate controls
        for tracking tips and complaints from whistleblowers seeking bounties into
        the development of its tip, complaints and referral processes and systems
        for other tips and complaints. These controls should provide for the
        collection of necessary information and require processes that will help

19
  The MITRE Corporation: Center for Enterprise Modernization (www.mitre.org) is a not-for-profit
organization that provides systems engineering, research and development, and information technology
support to the government.
Assessment of the SEC’s Bounty Program                                                 March 29, 2010
Report No. 474
                                              Page 18
       ensure that bounty applications are reviewed by experienced Commission
       staff, decisions whether to pursue whistleblower information are timely
       made, and whistleblowers that provide significant information leading to a
       successful action for violation of the securities laws.

       Management Comments. Concur. See Appendix V for management’s
       full comments.

       OIG Analysis. We are pleased that Enforcement concurred with this
       recommendation.


Finding 6: Bounty Files Did Not Always
Contain Complete Information
       Some bounty files maintained by OCC were missing key
       documents.

We obtained and reviewed the hard-copy bounty files maintained by OCC
(OCC’s primary recordkeeping method for the bounty program) for the nine
sampled bounty applications. We found that generally the bounty files
maintained by OCC contained a copy of the bounty application, an
acknowledgement memorandum that was sent to the bounty applicant to
acknowledge receipt of their application, and a copy of a memorandum showing
to which senior-level official within the Commission the bounty application was
forwarded for consideration. However, for the nine bounty applications the OIG
reviewed, we found in some instances that not all these documents were
maintained.

Specifically, we found:

   •   For one of nine bounty files, the actual bounty application was missing.

   •   For three of nine bounty files, a copy of the acknowledgement
       memorandum that was sent to the whistleblower was missing. However,
       there was mention in other documentation in the file that an
       acknowledgement memorandum was sent.

   •   For two of nine bounty files, the memorandum showing to which
       headquarters or regional office that OCC referred the bounty application
       for further consideration was missing.



Assessment of the SEC’s Bounty Program                               March 29, 2010
Report No. 474
                                         Page 19
We believe that, at a minimum, OCC should maintain copies of pertinent data
pertaining to bounty applications, including the application itself, a copy of any
correspondence with the whistleblower, and documentation showing the
Commission office(s) to which the information was referred for action.

       Recommendation 7:

       The Division of Enforcement should require that a bounty file (hard copy or
       electronic) be created for each bounty application. The file should contain
       at a minimum the bounty application, any correspondence with the
       whistleblower, documentation of how the whistleblower’s information was
       utilized, and documentation regarding significant decisions made with
       regard to the whistleblower’s complaint.

       Management Comments. Concur. See Appendix V for management’s
       full comments.

       OIG Analysis. We are pleased that Enforcement concurred with this
       recommendation.


Finding 7: SEC Bounty Program Should
Incorporate Best Practices from other Agencies
with Whistleblower Programs
The IRS and the DOJ are two large government agencies that use whistleblower
programs to identify cases that would otherwise go undetected. There is some
evidence that DOJ’s whistleblower program has played a role in the increase of
civil recoveries obtained by DOJ over a 10-year period. The IRS also has a
system in place under which it provides bounties to individuals who present the
IRS with information leading to the collection of federal taxes.

We reviewed documentation related to these whistleblower programs and
identified several best practices that the Commission should adopt in developing
a successful SEC bounty program. In order to protect the confidentiality of
privileged information we obtained during our review, the best practices are
summarized and not specifically identified with a particular agency. We identified
best practices related to tracking and handling whistleblower-type complaints as
follows:

   •   Establishment of a separate “Whistleblower Office” staffed with
       experienced officials that handles intake of whistleblower complaints and

Assessment of the SEC’s Bounty Program                                 March 29, 2010
Report No. 474
                                         Page 20
       referral of complaints to other offices as appropriate, while maintaining
       authority to make award determinations.

   •   Continual tracking and documentation of the handling of whistleblower
       complaints through a case tracking system, including information
       pertaining to the identification of the whistleblower and any
       representatives, actions taken to assign whistleblower claims to applicable
       offices and individuals, and the status of significant decisions made and
       still needed with regard to outstanding whistleblower claims (e.g., whether
       a claim will be paid and in what amount).

   •   Use of standardized forms for the intake of whistleblower information as
       well as recording significant decisions made by operating divisions while
       processing a whistleblower claim (i.e. operating division assessments on
       how a whistleblower’s information aided in collection of funds pertaining to
       an examination).

   •   Initial analysis of whistleblower information by the Whistleblower Office
       and then by Operating Division subject matters experts to evaluate the
       information and determine whether it may materially contribute to a case
       or examination. Additionally, subject matter experts meet with
       whistleblowers to clarify the whistleblowers’ submissions as necessary,
       gather information about the credibility of the whistleblowers, obtain
       information regarding legal issues that can affect the use of documents,
       and obtain possible leads to other sources of information.

   •   Requirement that routine feedback in the form of status reports be
       provided to the Whistleblower Office by Operating Divisions regarding the
       status of cases and examinations that pertain to whistleblower complaints.

   •   Establishment of a whistleblower award file (created in addition to a
       regular case file) that is sent by Operating Divisions at the conclusion of
       an examination to the Whistleblower Office that contains pertinent forms
       and data to enable the Whistleblower Office to make an award
       determination.

   •   Establishment of a requirement that whistleblower complaints be reviewed
       and pursued, if applicable, within a specified time frame.

   •   Continual assessment of whistleblower programs through feedback
       sought from Operating Divisions and others involved in processing
       whistleblower claims.



Assessment of the SEC’s Bounty Program                                 March 29, 2010
Report No. 474
                                         Page 21
Through discussions with Commission officials responsible for drafting the recent
proposed legislation to expand the SEC’s authority to reward whistleblowers, we
learned that the Commission met extensively with representatives from both DOJ
and the IRS to identify best practices for revamping the SEC’s current bounty
program. Commission officials stated they plan to incorporate many of these
best practices into implementing regulations and policies and procedures, as
appropriate, upon passage of the proposed legislation. Until such time as this
legislation may be passed, the Commission should begin to incorporate best
practices we identified from DOJ and the IRS.

       Recommendation 8:

       We recommend that the Division of Enforcement incorporate best
       practices from the Department of Justice and the Internal Revenue
       Service into the Securities and Exchange Commission bounty program
       with respect to bounty applications, analysis of whistleblower information,
       tracking of whistleblower complaints, recordkeeping practices, and
       continual assessment of the whistleblower program.

       Management Comments. Concur. See Appendix V for management’s
       full comments.

       OIG Analysis. We are pleased that Enforcement concurred with this
       recommendation.

       Recommendation 9:

       We recommend that the Division of Enforcement set a timeframe to
       finalize new policies and procedures for the Securities and Exchange
       Commission bounty program that incorporate the best practices from
       Department of Justice and the Internal Revenue Service, as well as any
       legislative changes to the program.

       Management Comments. Concur. See Appendix V for management’s
       full comments.

       OIG Analysis. We are pleased that Enforcement concurred with this
       recommendation.




Assessment of the SEC’s Bounty Program                                March 29, 2010
Report No. 474
                                         Page 22
                                                                    Appendix I


                  Acronyms and Abbreviations

          DOJ                      Department of Justice
          Enforcement              Division of Enforcement
          Exchange Act             Securities Exchange Act of 1934
          IRS                      Internal Revenue Service
          ITSEA                    Insider Trading and Securities Fraud
                                   Enforcement Act of 1988
          OCC                      Office of Chief Counsel, Division of
                                   Enforcement
          OIG                      Office of Inspector General
          OMI                      Office of Market Intelligence
          SEC or Commission        U.S. Securities and Exchange Commission
          TCR                      Tip Complaint and Referral Process




Assessment of the SEC’s Bounty Program                            March 29, 2010
Report No. 474
                                         Page 23
                                                                     Appendix II


                      Scope and Methodology

This review was not conducted in accordance with the government auditing
standards.

Scope. We examined Enforcement program activities related to the SEC
bounty program since its inception in 1989, and assessed whether necessary
management controls have been established and operate effectively to ensure
bounty applications are routed to appropriate personnel and are properly
processed and tracked. We also determined whether other government
agencies with similar programs have best practices that could be incorporated
into the SEC bounty program. Fieldwork was performed during December 2009
and January 2010.

Methodology. In order to accomplish our audit objectives, we reviewed
applicable Commission policies and procedures pertaining to the SEC bounty
program; interviewed personnel from the Office of the Chairman, Enforcement
and three regional offices to understand how bounty applications are processed;
reviewed documentation to support all ten bounty applications that were formally
approved or denied; and selected a sample of bounty applications that were not
formally approved or denied to determine if sufficient documentation existed to
support timely and appropriate handling of bounty applications. We also
gathered information regarding the IRS and DOJ whistleblower programs to
identify best practices.

Judgmental Sampling. We judgmentally selected a sample of nine out of
approximately 30 bounty applications that were received by the Commission, but
were not formally approved or denied. We then reviewed applicable files and
documentation maintained by Enforcement as well as three of the 11 regional
offices to determine whether the bounty applications were tracked, reviewed by
experienced Commission staff and appeared to be appropriately handled.

Prior OIG Coverage. This review was conducted as a result of an issue that we
identified during OIG’s investigation into the SEC examination and investigations
of Bernard L. Madoff and related entities, OIG’s Report of Investigation,
Investigation of Failure of the SEC to Uncover Bernard Madoff’s Ponzi Scheme,
Report No. 509, August 31, 2009.




Assessment of the SEC’s Bounty Program                              March 29, 2010
Report No. 474
                                         Page 24
                                                                   Appendix III


                                     Criteria

Section 21A(e) of the Securities Exchange Act of 1934, 15 U.S.C. § 78u-1(e),
as added by the Insider Trading and Securities Fraud Enforcement Act of
1988, Public Law 111-72 (enacted on October 13, 2009). Authorizes the
SEC to award a bounty to a person who provides information leading to the
recovery of a civil penalty from an insider trader, from a person who tipped
information to an insider trader, or from a person who directly or indirectly
controlled an insider trader. All bounty determinations, including whether, to
whom, or in what amount to make payments, are within the sole discretion of the
SEC, however, the total bounty may not currently exceed 10 percent of the
amount recovered from a civil penalty pursuant to a court order.

17 C.F.R., Part 201, Subpart C- Procedures Pertaining to the Payment of
Bounties Pursuant to subsection 21A(e) of the Securities Exchange Act of
1934. Sets forth procedures regarding applications for the award of bounties
pursuant to Subsection 21A(e) of the Securities and Exchange Act of 1934.




Assessment of the SEC’s Bounty Program                            March 29, 2010
Report No. 474
                                         Page 25
                                                                       Appendix IV


                     List of Recommendations

Recommendation 1:

The Division of Enforcement should develop a communication plan to address
outreach to both the public and the Securities and Exchange Commission (SEC)
personnel regarding the SEC bounty program. The plan should include efforts to
make information available on the SEC’s intranet, enhance information available
on the SEC’s public website, and provide training to employees who are most
likely to deal with whistleblower cases.

Recommendation 2:

The Division of Enforcement should develop and post to its public website an
application form that asks the whistleblower to provide information, including, for
example (1) the facts pertinent to the alleged securities law violation and an
explanation as to why the subject(s) violated the securities laws; (2) a list of
related supporting documentation available in the whistleblower’s possession
and available from other sources; (3) a description of how the whistleblower
learned about or obtained the information that supports the claim including the
whistleblower’s relationship to the subject(s); (4) the amount of any monetary
rewards obtained by the subject violator(s) (if known) as a result of the securities
law violation and how the amount was calculated; and (5) a certification that the
application is true, correct, and complete to the best of the whistleblower’s
knowledge.

Recommendation 3:

The Division of Enforcement should establish policies on when to follow-up with
whistleblowers who submit applications to clarify information in the bounty
applications and obtain readily available supporting documentation prior to
making a decision as to whether a whistleblower’s complaint should be further
investigated.

Recommendation 4:

The Division of Enforcement should develop specific criteria for recommending
the award of bounties, including a provision that where a whistleblower relies
partially upon public information, such reliance will not preclude the individual
from receiving a bounty.

Assessment of the SEC’s Bounty Program                                 March 29, 2010
Report No. 474
                                         Page 26
Recommendation 5:

The Division of Enforcement, in consultation with the Office of General Counsel,
should examine ways in which the Commission can increase communications
with whistleblowers by notifying them of the status of their bounty requests
without releasing non-public or confidential information during the course of an
investigation or examination.

Recommendation 6:

The Division of Enforcement should develop a plan to incorporate controls for
tracking tips and complaints from whistleblowers seeking bounties into the
development of its tip, complaints and referral processes and systems for other
tips and complaints. These controls should provide for the collection of
necessary information and require processes that will help ensure that bounty
applications are reviewed by experienced Commission staff, decisions whether to
pursue whistleblower information are timely made, and whistleblowers that
provide significant information leading to a successful action for violation of the
securities laws.

Recommendation 7:

The Division of Enforcement should require that a bounty file (hard copy or
electronic) be created for each bounty application. The file should contain at a
minimum the bounty application, any correspondence with the whistleblower,
documentation of how the whistleblower’s information was utilized, and
documentation regarding significant decisions made with regard to the
whistleblower’s complaint.

Recommendation 8:

We recommend that the Division of Enforcement incorporate best practices from
the Department of Justice and the Internal Revenue Service into the Securities
and Exchange Commission bounty program with respect to bounty applications,
analysis of whistleblower information, tracking of whistleblower complaints,
recordkeeping practices, and continual assessment of the whistleblower
program.

Recommendation 9:

We recommend that the Division of Enforcement set a timeframe to finalize new
policies and procedures for the Securities and Exchange Commission bounty
program that incorporate the best practices from Department of Justice and the
Internal Revenue Service, as well as any legislative changes to the program.

Assessment of the SEC’s Bounty Program                               March 29, 2010
Report No. 474
                                         Page 27
                                                                                     Appendix V

                              Management Comments
                                          MEMORANDUM


 TO:             H. David Kotz, Inspector General, Office of Inspector General

 FROM:           Robert Khuzami, Director, Division of Enforcement      ~q ~ ~
 RE:             Enforcement's Response to the Office of Inspector General's Report, Assessment
                 of SEC Bounty Program, Report No. 474

 DATE:           March 24, 2010


        This memorandum is in response to the Office of Inspector General's Draft Report No.
 474, entitled Assessment ofSEC Bounty Program. Thank you for the opportunity to review and
 respond to this report. We concur in the report's recommendations.

         E~ly last year, Chairman Schapiro directed staff to begin working to establish a wo~ld­
 class whistleblower program. To tJIat end, we. conducted an extensive review of whistleblower
 programs at other government&l agencies and the Financial Industry Regulatory Authority
 (FINRA) to identifY best practices for administering a successful program at the SEC. Our effort
 resulted in legislation currently under consideration by Congress that would cre~te a new, more-
 comprehensive whistleblower program related to.all securities violations.

         As a result of our review, and as noted in your report, Division leadership was aware,
 prior to the audit, of the issues with the insider trading bounty program raised in your report. The
 Division's ·independent findings, and its plans for developing a new whistleblower program, are
 consistent with those set.forth in the report.

          In addition, it is not ·surprising that only a small percentage of insider trading cases have
. been initiated as a result of tip submitted through the insider trading bounty program. The vast
_majority of insider trading cases arise from routine surveillance performed by the SEC staff and
  the Self-Regulatory Organizations (SROs), such as FINRA and the stock exchanges, and not·
  from tips submitted by members ofthe public.. For eXample, of the 37'insider trading action
  brought by. the Commission in FY 2009, 31 were the result of surveillance by the SROs or the
  Division itsel£ We believe .the principal reason that the current bounty program ~as not yielded·
  more rewards derives more from its relatively narrow s.cope and the confidential natun::ofinsider.
  trading violations than from the procedural shortcomings .we rec~gnize exist. Notwithstan<Ji~g
  the program's limitations, the Commission has' an excellent track record of paying eligi~le.
  cIairnahts, as each award has been for the maximum amount allowed by the bounty sta,tute

           The proposed whistleblower legislation was drafted principally to broaden the nature of.
   wrongdoing for which whistleblowers could receiye a bounty. In our efforts to craft this new.'
   program, 'however, great care was taken to address and avoid problems identified with the insider
. 'trading ~ounty pr.ogiam; incJu~ing our desi~e to establish a formal program with dedicated staff
   and:'state-of-the-art policies and procedures. It,"the propose<i legislation is enacted, thenew




       Assessment of the SEC’s Bounty Program                                       March 29, 2010
       Report No. 474
                                                Page 28
whistleblower program would not be an extension of the current insider trading bounty program.
Instead, it would subsume the existing program and. thereby, constitute an entirely new program
based on the structure and best practices of other successful whistleblower programs.

        We also have taken other steps that we believe will address some of the
recommendations. As indicated in the Draft Strategic Plan for 201 0-20J 5, the Commission is
centralizing the proeess for receiving, reviewing, and acting upon tips, complaints and referrals
(TCRs) so they can be handled consistently and appropri~tely.including through examinations or
enforcement investigations. In connection with this effort, the Commission hired the MITRE
Corporation to assist in revamping our intake, triage and analysis ofTCRs, and has adopted a
new agency-wide policy for handling TCRs, embodied in Tips, Complaints, and Referrals Intake
Policy, SeCurities Exchange Commission Regulation 3-2, March 10,2010 (SECR 3-2). The
Division has adopted supplemental guidance to implement this policy. Division of Enforcement,
Interim Policies and Procedures for Handling Tips. Complaints and Referrals (TCRs) (March
24,2010).

        The'Division's new Office of Market Intelligence (OMI) will consolidate the Division's
handling ofTCRs in accordance with SECR 3-2 and our supplemental guidance. The principal
functions of OMI will include coordination, consolidation and management of the Division's
proceSses with respect to TCRs that come to the Division's attention from any internal or
external source. Tips received through the insider trading bounty program will be covered by the
Commission's new TCR policy, as will the tips and complaints covered by the proposed new
whistleblow<:<r legislation. We have considered DIG's report in light of these developments.

        While we concur with the recommendations, it1s our hope that pending legislation before
the Congress, as noted above, will create a new program wholly replacing the current one. In
such a case, we believe it would be appropriate to address many of the recommendations below
through enactment of policies and procedures involving the agency's new authority as opposed
to embarking upon modifications of the current insider trading bounty program, which we hope
will soon be superseded.

Recommendation 1 relates to communicating infonnation about the bounty program, both
externally and internally. We coneur and will develop a plan consistent with this
recomm.endation.

Recommendation 2 relates to the development of a fonn for requesting infonnation from
whistleblowers. We concur with this recommendation. In connection with the revamped TCR
system, the electronic fonn in which infonnation is collected will·be updated, and we expect to
have a fonn directed specifically to whistleblowers.

Recommendation 3 relates to policies for fo.llow-up with whistleblowers to obtain any
additional infonnation they may have. We concur with this recommendation. Tht;: Division will
be developing processes arid procedures for follow up with whistleblowers.




                                                2



     Assessment of the SEC’s Bounty Program                                     March 29, 2010
     Report No. 474
                                              Page 29
Recommendation 4 relates to the criteria for recommending the award of bounties. We concur
with this recommendation. The Division will develop criteria consistent with this
recommendation.

Recommendation 5 relates to the examination of ways to provide notice to whistleblowers as to
the status of their bounty requests. We COnCur with this recommendation. The Division will
work with the Office of General Counsel to address this recommendation.

Recommendation 6 relates to controls for tracking tips and complaints from whistleblowers.
We concur with this recommendation. The Commission's TCR project has already focused on
particular capabilities necessary to track whistleblower tips and complaints, and the system
currently in development will incorporate controls to ensure that tips are reviewed and track
whether timely decisions are made whether to pursue tips.

Recommendation 7 relates to maintenance of whistleblower complaint files. We concur with
this recommendation. The Division will adopt procedures for creation and retention of
information relevant to a whistleblower complaint.

Recommendation 8 relates to incorporation ofbes! practices from the Department of Justice and
the Internal Revenue Service with respect to bounty app.lications. We concur with this
recommendation. As the report notes, the Division has already met with these agencies to
identify best practices. The Division will adopt best practices for the existing insider trading
bounty program or will incorporate such practices into any new program should the proposed
legislation be enacted.

Recommendation 9 relates to formulation of a" timeline for policies and procedures for the
existing bounty program. We concur with this recommendation. The Division will develop an
appropriate timeline.




                                               3



    Assessment of the SEC’s Bounty Program                                    March 29, 2010
    Report No. 474
                                             Page 30
                                                                     Appendix VI


              Office of Inspector General
         Response to Management’s Comments

We are pleased that Enforcement fully concurred with all nine of the report’s
recommendations and are encouraged that the SEC has begun to take steps to
correct the identified deficiencies.

Enforcement noted in its response that it believes the principal reason that the
current bounty program has not yielded more rewards derives more from its
relatively narrow scope and the confidential nature of insider trading violations
than from procedural shortcomings that it recognizes exists. Enforcement further
stated that the newly proposed whistleblower legislation was drafted principally to
broaden the nature of wrongdoing for which whistleblowers could receive a
bounty.

As we discussed in our report, although we noted the limitations in scope, we
also found that the minimal use of the SEC bounty program can be attributed to
the fact that the program has not been widely publicized and that information on
the SEC’s public website was misleading and may have deterred prospective
whistleblowers from applying. We also found that more frequent communication
with whistleblowers would encourage applications.

We believe it is critical for the SEC to implement the report’s recommendations to
ensure that it has a fully functioning and successful bounty program in place as
its authority is potentially expanded.




Assessment of the SEC’s Bounty Program                               March 29, 2010
Report No. 474
                                         Page 31
                      Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Requests/Ideas)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. # 202-551-6061 Freedom of Information Act (FOIA)
Fax # 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at
      Commission, contact the Office of Inspector General at:

              Phone: 877.442.0854

              Web-Based Hotline Complaint Form:
              www.reportlineweb.com/sec_oig
